<html>
<title> - INTERNATIONAL VIOLENCE AGAINST WOMEN: STORIES AND SOLUTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      INTERNATIONAL VIOLENCE AGAINST WOMEN: STORIES AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2009

                               __________

                           Serial No. 111-64

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-986                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Janice D. Schakowsky, U.S. House of Representatives     1
The Honorable Melanne Verveer, Ambassador-at-Large, Office of 
  Global Women's Issues, U.S. Department of State................    10
The Honorable Linda Smith, President and Founder, Shared Hope 
  International (Former Member of the U.S. House of 
  Representatives)...............................................    28
Ms. Mallika Dutt, Founder and Executive Director, Breakthrough...    38
Ms. Nicole Kidman, Actress, UNIFEM Goodwill Ambassador...........    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Janice D. Schakowsky: Prepared statement...........     3
The Honorable Melanne Verveer: Prepared statement................    14
The Honorable Linda Smith: Prepared statement....................    32
Ms. Mallika Dutt: Prepared statement.............................    40
Ms. Nicole Kidman: Prepared statement............................    44

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57

 
      INTERNATIONAL VIOLENCE AGAINST WOMEN: STORIES AND SOLUTIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order. The usual 
practice is for the chair and the ranking member to make 
opening statements. But I am informed that our colleague and 
good friend and leader on this issue has another commitment. So 
we are going to welcome Congresswoman Schakowsky. And Jan, if 
you would proceed with your statement.

STATEMENT OF THE HONORABLE JANICE D. SCHAKOWSKY, U.S. HOUSE OF 
                        REPRESENTATIVES

    Ms. Schakowsky. Thank you, Mr. Chairman. And first let me 
tell you how much I appreciate your leadership on this issue. 
And I am grateful to all of the cosponsors, men and women 
alike, that are on this bill, because it isn't just a women's 
issue. The hearing is critical because it is too easy to 
dismiss violence against women as a product of cultural 
differences or as a byproduct of war, or as a women's issue. 
The reality is that violence against women is a humanitarian 
tragedy, a vicious crime, a global health catastrophe, a social 
and economic impediment, and a threat to national security. The 
numbers speak for themselves. One in three women worldwide is 
beaten, coerced into sex, or otherwise abused over the course 
of her lifetime.
    But the stories of individuals are even more powerful. We 
could talk about Barbara from Mexico, who was a volunteer 
working with street children when she was detained without 
charge and reportedly physically and sexually abused by Mexican 
police. Or Claudina from Guatemala, a 19-year-old student 
studying to become a lawyer, whose murder, despite evidence of 
rape, was not investigated.
    You don't have to look far to find cases of violence 
against women. FBI statistics show there were 89,000 cases of 
reported rape here in the United States last year. However, 
women in conflict zones face a particularly desperate 
situation. In the Democratic Republic of Congo, the systematic 
use of rape as a low-tech, low-cost weapon of war has become a 
defining characteristic of the longstanding conflict in the 
East. Hundreds of thousands of women have been raped. Rape is 
used to destroy communities and to instill a sense of despair 
within a population.
    One woman, Luma Furaha, told about being gang-raped by over 
50 armed men. After nine surgeries, she has still not 
physically recovered.
    Another, 50-year-old Zamuda, describes her rape by saying, 
``They wanted to destroy me, destroy my body, and kill my 
spirit.''
    It is very hard to talk about these stories, but it is 
really necessary to do so. It is not just the DRC, the Congo, 
it is also Sudan and Chad, where thousands of the women who 
have fled the conflict in Darfur have continued to face sexual 
violence as refugees. And Eastern Europe, where trafficking of 
women remains prevalent. And in homes throughout the world, 
where women are beaten by members of their own families.
    Studies show that sexual violence and the attached social 
stigma hinder the ability of women to fully participate in and 
contribute to their societies. Survivors of violence are less 
likely to hold jobs and more likely to live in poverty than 
other women.
    One study conducted in Nicaragua and cited by the World 
Health Organization found that women who had been abused earn 
an average of 46 percent less than those who had not, even when 
controlling for other wage-affecting factors.
    Women often must overcome devastating health consequences 
as a result of sexual violence. Women and girls who survive 
sexual violence face an increased risk of poor reproductive 
health, including complications during pregnancy and birth, and 
they are at risk of contracting sexually transmitted diseases, 
including HIV/AIDS.
    Studies have also linked abuse and rape to higher rates of 
serious psychological problems, including drug and alcohol 
abuse, nervous system disorders, and posttraumatic stress 
syndrome. U.N. statistics indicate that rape survivors are nine 
times more likely to attempt suicide than individuals who have 
not experienced sexual violence.
    Mr. Chairman, U.S. leadership on this issue is critical, as 
you know. I commend the Obama administration, the leadership of 
Secretary Clinton, and Ambassador Verveer for clearly stating 
that fighting international violence against women will be a 
priority.
    Still, we need to do more. And I am so proud to work with 
you, Mr. Chairman, on the International Violence Against Women 
Act (IVAWA), which will soon be reintroduced. This 
unprecedented legislation firmly establishes the prevention of 
violence against women as a foreign policy priority. And it 
requires the integration of this goal into every aspect of our 
diplomatic and developmental policy. IVAWA authorizes a multi-
year comprehensive strategy to prevent and respond to violence 
against women in a select number of targeted countries. The 
funding will cover a full spectrum of programs, including 
judicial reforms, health care, education, economic empowerment, 
and changing social norms. It includes tools to ensure 
accountability and oversight to determine the effectiveness of 
U.S. efforts.
    In addition, IVAWA recognizes the particular dangers faced 
by women in conflict and post-conflict situations and 
authorizes training for military and police forces operating in 
these dangerous zones to effectively address violence against 
women and girls.
    Mr. Chairman, violence against women affects us all. As co-
chair of the Women's Caucus, I feel strongly that we must do 
more to help the women throughout the world whose lives have 
been forever altered by violence, and the families, 
communities, countries, and even entire regions of the world 
that will never be stable, open, and prosperous as long as 
violence against women is perpetuated.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Schakowsky 
follows:]<greek-l>Janice Schakowsky deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Well, thank you, Congresswoman. And thank you 
sincerely for your terrific leadership on this issue. You have 
been involved in this issue during the course of your public 
career. So thank you.
    And I will make a statement at this point in time, and then 
I will ask my colleague and friend, the ranking member, Mr. 
Rohrabacher from California, to make his opening statement. And 
then we will go directly to the Ambassador.
    Violence against women should concern all of us, for no 
other reason than it is unjust, it is uncivilized, and it is 
immoral. The reality that domestic violence is perpetrated 
almost exclusively by men against women, as the Congresswoman 
so rightly alluded to, does not make it a women's issue. It is 
a male problem. It is important to understand as well that if 
violence against women is acceptable, then violence, wherever 
and to whomever it is directed against, is acceptable.
    I saw this firsthand, because before coming to Congress, I 
was the elected district attorney in the metropolitan area of 
Boston. And I had the statutory responsibility for 
investigating crimes committed within the maximum security 
prisons in Massachusetts. And I became very familiar with the 
social history of inmates incarcerated in those facilities. 
Invariably, the men there who had committed acts of violence 
were the legacy of violent families, where violence was 
accepted and violence was the norm. It is my own opinion that 
when violence against women is implicitly sanctioned and not 
punished, violent behavior in general is encouraged, whether 
the victim is an individual, a community, or even a nation.
    It was Secretary Clinton--and I want to acknowledge her 
leadership on this issue as well, she has really provided us 
with the kind of leadership that we can all be proud of--but it 
was Secretary Clinton who stated, and I am quoting here, that 
acts of violence against women don't ``just harm a single 
individual or a single family or village or group; they shred 
the fabric that weaves us together as human beings. It 
endangers families and communities, erodes social and political 
stability, and undermines economic progress.'' I completely 
concur.
    Tragically, examples of extreme violence against women 
abound. Rape is now routinely utilized as a tactic of war. 
Brutal violence is also rampant in countries that don't face 
armed conflicts, whether in the home, or at the workplace, or 
openly, as we have observed, on the streets.
    In Guinea, the New York Times referred to women as 
``prey.'' Reports show that armed soldiers beat, raped and 
killed women in broad daylight.
    In the Democratic Republic of Congo, the violence is so 
profound that Major General Patrick Cammaert, former U.N. 
peacekeeping operations commander, opined that it is more 
dangerous to be a woman there than a soldier.
    The United Nations Development Fund for Women estimates 
that nearly 1 billion women globally will be beaten, raped, 
mutilated, or otherwise abused during their lifetime. 
Disturbingly, nearly 50 percent of all sexual assaults 
worldwide are committed against girls under 15 years, most 
often at the hand of family members. That is 1 billion with a 
B. The international community and the United States must take 
a stand to protect the women around the world. We must act not 
only because it is the right thing to do, but because our own 
security, American security is implicated.
    Keep in mind that a statement by the Joint Chiefs of Staff 
emphasizes that one of the most effective forces in defeating 
extremism is female education. Women hold the key for our 
progress and development around the world. Women hold the key 
for our very own security. And as the Congresswoman indicated, 
the issue knows no boundaries. It is not an issue of the 
developing versus the developed world. It is not a question of 
imposing one culture over another, because every person 
deserves to live a life free of violence. And I have no doubt 
that this issue can be addressed successfully. And in time we 
will see--and it will take time--dramatic and even unexpected 
results.
    As I mentioned earlier, I served as the district attorney 
for over 20 years. And in 1978, we created the first domestic 
violence unit in the Nation. That program, I am proud to say, 
has been replicated all over the country and even 
internationally. The results were truly remarkable. Domestic 
violence homicides averaged somewhere between seven and eight 
annually every year in my district. Some female died because of 
abuse and violence directed against her. After the program was 
implemented, not a single domestic violence homicide occurred 
in my district for more than a decade. So we can do it.
    On a larger scale, USA Today indicated that the rate of 
reported rapes in the United States has hit a 20-year low. And 
violent crime in general is decreasing. I believe that this is 
partially due to the more aggressive response we as a Nation, 
as a society, have taken toward violence against women. And 
like I said, I am confident that we can achieve remarkable 
results internationally if people of good will and political 
leaders everywhere make this a priority. I believe we have an 
unparalleled opportunity at this moment in time.
    The U.N. recently adopted resolutions 1888 and 1889 
condemning continued sexual violence against women in conflict 
and post-conflict situations, in addition to combining its four 
agencies pertaining to women into one comprehensive agency.
    Domestically, President Obama created the White House 
Council on Women and Girls. He appointed a senior adviser on 
violence against women, and created the position of ambassador-
at-large for global women's issues. By doing so, the 
administration put women's rights at the forefront of its 
domestic and foreign policy, where they should be.
    Now it is time for Congress to act. That is why in the 
coming weeks I plan to introduce, with my colleagues, the 
International Violence Against Women Act. This legislation 
would systematically integrate and coordinate efforts to end 
violence against women in our foreign policy, promote women's 
human rights and opportunities worldwide, support and build the 
capacity of local NGOs working to end the violence, and 
finally, enhance training in humanitarian relief in crisis 
settings. This legislation, as I suggested, is the right thing 
to do, it is the moral thing to do, and it is the smart thing 
to do.
    And this past September, on September 29th, 2009, we marked 
the 15th anniversary of the Violence Against Women Act. I have 
this memory of testifying on several occasions before our now-
Vice President Joe Biden, who really led that particular 
effort. And there is no reason, there is no reason why we 
should not be commemorating the first anniversary of the 
International Violence Against Women Act next year.
    With that, let me turn to my friend and colleague from 
California, the ranking member of this committee, Congressman 
Dana Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
appreciate you focusing the attention of this committee on this 
very significant issue. It is a significant issue because it 
deals with a fundamental issue that we need to confront that 
has been ignored for far too long with our relations of many 
countries around the world.
    I am someone who prides himself on being an advocate of 
human rights. And today we had a great discussion on human 
rights in Burma. But it should escape no one's attention that 
almost all of the regimes that deny fundamental rights of all 
of their people are also those regimes that are most egregious 
violators of the rights of women.
    We just looked at Burma today. And the fact is in Burma the 
horrendous crimes that are being perpetrated as part of an 
overall strategy by the government of repression is just 
unbelievable. And we need to confront it and confront it 
publicly and aggressively. It shouldn't be an issue. That is 
just one of the side issues that we are just talking about with 
governments like this. We need to confront those governments in 
the world. And we have in the past not been confronting them 
because we have believed that, well, this is part of their 
Islamic faith, that women have to be relegated to a certain 
status, and their rights as compared to men's rights are 
different in those societies.
    I happen to believe that rights are given to all people by 
God. All people. And the fact is that there are no rights that 
are good rights over here and not rights over here because of 
some societal trends or some history of their traditions. No. 
If we believe that people have human rights, the rights of 
women to have equal treatment and to be free from violent 
attack, just like men in their society, that should be right on 
the top of our agenda when we discuss human rights and other 
issues with these countries.
    And I happen to believe that we should not be treating 
countries that have very poor human rights records in the same 
way, with the same respect that we treat countries with more 
democratic and more, I would say, respectful of the human 
rights of their population.
    So today I would hope that we address at least the issue of 
Islam and what we should do about women's rights in Islamic 
countries. Just because a country is producing oil doesn't mean 
we should ignore the type of oppression that goes on with half 
of their population.
    I am a father of three children. My wife and I were blessed 
with triplets 5\1/2\ years ago. She has done all the work, of 
course. No, actually I do a lot of work. I have changed more 
diapers than anybody in this room, I want you to know. But let 
me just note--I have one boy and two girls--I am totally 
committed to my girls having the same rights and the same 
opportunities and the same freedom that my boy has. And that is 
the kind of world we want to work at, and we want all the 
little girls of the world to know that, and not grow up with a 
predetermined positioning that they have put on them 
by<greek-l>, quote, deg. ``tradition,'' or by their own 
governments.
    And especially when we talk about the violence on women, 
women who are arrested in various countries throughout the 
world, so many of them face rape while they are in prison. This 
is another intolerable situation that we have not come to full 
grips with<greek-l>, deg. that we need to. If we believe in 
human rights, we need to put the condition and the treatment of 
women in prisons and elsewhere in these societies high on our 
list of negotiating points. And again, we haven't done that.
    So I am very grateful to you, Mr. Chairman, that this is 
the type of dialogue that will, we hope, create the momentum so 
that that type of issue is put on the top of the list and not 
the bottom of the list when talking with these less-than-free 
countries.
    So with that said, Mr. Chairman, thank you very much. I am 
looking forward to the testimony today, getting some of the 
details, but also finding perhaps some of the opportunities we 
have as Americans to prove to the whole world, not just half 
the world that happens to be male, but the whole world that we 
do believe in liberty and justice for all.
    Mr. Delahunt. Thank you, Dana.
    And now we will proceed, I am going to welcome the 
Ambassador to the witness table.
    Mr. Royce. Mr. Chairman, could I have a short opening 
statement?
    Mr. Delahunt. I spoke to the ranking member, and there are 
some time constraints. But we will go back to the customary no 
rules once we have had a chance to hear from our witnesses.
    I am especially pleased to welcome Ambassador Verveer, who 
is the first ambassador-at-large for global women's issues, 
which I am sure is reflective of all of the work I know that 
she has done on these issues during the course of her life, 
during the course of her public service. She works to 
coordinate foreign policy issues and activities relating to the 
political, economic, and social advancement of women around the 
world. Welcome, Ambassador, and please proceed with your 
testimony.

   STATEMENT OF THE HONORABLE MELANNE VERVEER, AMBASSADOR-AT-
  LARGE, OFFICE OF GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Verveer. Thank you, Mr. Chairman, and to the 
members of the committee, for bringing us together to continue 
to address one of the most serious global challenges of our 
time: Violence against women and girls. And I also want to 
thank Congresswoman Schakowsky, who has been a leader on these 
issues for a very long time.
    The time to take concerted action to end international 
violence against women is now. Today we have a far greater 
understanding of the global variables involved in this problem, 
why we must intensify our efforts against this worldwide 
scourge, and of the consequences if we fail to seize this 
opportunity. We need to chart a new era of international 
cooperation on this global pandemic, to create partnerships 
among governments, multilateral institutions, the private 
sector, civil society, and individuals.
    And I want to applaud Nicole Kidman for bringing her 
considerable celebrity, generosity, and commitment to working 
on behalf of UNIFEM, which has been such a strong leader on 
these issues for a long time.
    Violence against women cannot be relegated, as you said, 
Mr. Chairman, to the margins of foreign policy. It cannot be 
treated solely as a women's issue, as something that can be 
dealt with later after we take care of the more pressing issues 
of our time. Violence against women and girls is a humanitarian 
issue, it is a development issue, it is a national security 
issue.
    As Secretary Clinton has observed, there cannot be vibrant 
civil societies if half the population is left behind. Where 
violence and the threat of violence prevents women from 
participating fully, freely, and equally in their societies, in 
those places good governance, the rule of law, and economic 
prosperity cannot fully take root.
    Around the world the places that are the most dangerous for 
women also pose the greatest threats to international peace and 
security. The correlation is clear: Where women are oppressed, 
governance is weak, and extremism is more likely to take hold.
    The current scale, savagery, and extent of violence against 
women and girls are enormous. It affects girls and women at 
every point of their lives, from sex-selective abortion, which 
has culled as many as 100 million girls, to withholding 
adequate nutrition, to FGM, to child marriage, to rape as a 
weapon of war, to human trafficking, to so-called honor 
killings, to dowry-related murders, and so much more.
    Rape is fueling HIV/AIDS infection among adolescent girls, 
which continues to climb at a rate that should concern us all. 
And life everywhere is touched by violence. It occurs in homes, 
at schools, in the workplace, and all across society. This 
violence cannot be explained, as you said, Mr. Rohrabacher, as 
cultural or as a private matter. It is criminal. And it is 
every Nation's problem, and it is the cause of mass destruction 
around the globe. And we need a response that is commensurate 
with the seriousness of the crime.
    Now, the statistics that tell the extent of this 
humanitarian tragedy are well known. But behind those numbing 
quantitative data are qualitative data, the stories of actual 
people. We are telling their stories here in the hopes of 
keeping alive around the world a simmering sense of collective 
outrage that can and must spark into global action so that 
other women will be able to lead different kinds of life 
stories with happier endings.
    Mr. Chairman, you have entitled this hearing, ``Stories and 
Solutions.'' Stories of real lives should move us to action. 
And real solutions, ways of successfully combating this 
violence, should be lessons that we take to scale, lessons 
without borders.
    Addressing violence against women and girls means ending 
stories like Waris Dirie's, one of 2 or 3 million girls and 
women each year who are subject to FGM. She underwent the 
procedure in Somalia when she was five. She survived. But two 
of her sisters and a cousin died. Tostan, an NGO in Africa, has 
worked effectively to reduce the practice of female genital 
cutting, which is deeply ingrained in many societies. And there 
both men and women at the village level work together to become 
aware of the harmful effects and then take action to end it and 
ensure the health and well-being of the girls in their 
villages.
    It also means not having any stories like Shamsia Husseini. 
Parts of her face were eaten away by acid last year after a 
man, a stranger, decided that attacking her might prevent her 
from going to school in Afghanistan and getting an education. 
It didn't. She stayed in school despite the fact that her scars 
interfere with her eyesight. She is one of 2.6 million girls in 
Afghanistan in school, a vast improvement from 2001, when the 
Taliban prohibited any education for girls. But girls are still 
just one-third of the number of boys in school. Whether the 
numbers of girls continue to grow will say much about 
Afghanistan's future.
    Confronting violence means being able to rewrite stories 
such as that of a young Yemeni girl, Najoud. She is a vivacious 
child with a big smile whom I got to know. She was married at 
the age of eight to a man considerably older. She walked out of 
her house after 2 months of rapes and beatings and found her 
way to a courthouse, intending on getting a divorce. She was 
lucky to find a caring female lawyer who took her case, as well 
as that of other girls whose fathers had married them off, 
sometimes just to be free of the burden of caring for a 
daughter. Yemen has, subsequent to her case, been debating 
whether or not to raise the age of consent for marriage.
    Girls there still marry at a very young age. For these 
girls, not just from Yemen but from South Asia, from Africa, 
from elsewhere, their childhoods are effectively curtailed, 
their education is terminated, their emotional and social 
development interrupted. Maternal mortality is high for girls 
who have babies, and they face the highest risk for fistula and 
chronic physical disability. With interventions, however, 
solutions to provide incentives to parents to keep their 
daughters in school, ending school fees, or providing families 
with commodities like a bag of flour, a can of oil, or other 
necessary staples, or feeding children in school, other girls 
like Najoud will be spared potentially the horrors of child 
marriage.
    And the stories of violence against women include those of 
an estimated 5,000 who are killed each year to cleanse the 
family's so-called honor of the shame of the victim's or other 
people's alleged indiscretions. Mukhtar Mai from Pakistan was 
one woman such targeted, gang-raped on the orders of a local 
village council, because her brother allegedly held hands with 
a girl from a nearby village. It was expected that she would 
commit suicide because the attack on her had dishonored her 
family. She didn't. And this illiterate young woman mustered 
the courage to take her case to court. She won a modest 
settlement, which was used to build two schools, one for boys 
and one for girls. She enrolled herself in the school for 
girls. And when asked why she did this with her small 
settlement, she said, ``Nothing will ever change in my village 
until we have education here.''
    Women and children are also at risk in zones of conflict, 
when legal and social norms fall away and armies and militias 
act without fear of accountability or judicial penalty. In 
August I traveled with Secretary Clinton to Goma. At the Heal 
Africa Hospital we met a woman who told us she was 8 months 
pregnant when she was attacked. She was at home when a group of 
men broke in. They took her husband and two of their children 
in the front yard and shot them, before returning into the 
house to shoot the other two children. And then they beat and 
gang-raped her and left her for dead. Her story, unfortunately, 
is far too common.
    And in the DRC's eastern provinces, 1,100 rapes are 
reported each month. Rape is used in armed conflict as a 
deliberate strategy to subdue and destroy communities.
    Secretary Clinton took this issue to the U.N. Security 
Council, and 2 weeks ago spoke on behalf of a U.S.-sponsored 
resolution focused on protecting women against sexual violence 
in armed conflict. That counsel was unanimously adopted. Now we 
need to work to ensure that we see results.
    The stories I have outlined represent a humanitarian 
tragedy and more, a tragedy for all of our efforts to build a 
better world. These abuses not only destroy the lives of 
individual girls and women, families and communities, but they 
rob the world of the talent it urgently needs.
    There is a powerful connection between violence against 
women and the unending cycle of women in poverty. Women who are 
abused or who fear violence are unable to realize their full 
potential and contribute to their country's development. There 
are enormous economic costs that come with violence against 
women. Ending violence against women and girls is a 
prerequisite for their social, economic, and political 
participation and progress.
    There is a common thread among these stories. Each of them 
is fundamentally a manifestation of the low status of women and 
girls around the world. Ending the violence requires elevating 
their status and freeing their potential to become agents of 
change for good in their communities.
    We need a greater response to this global pandemic. In my 
written testimony, I have submitted numbers of ways that we are 
trying to address this challenge and how much more there is we 
can all do. Women are critical to progress and prosperity. And 
when they are marginalized and mistreated, humanity cannot 
progress. When they are accorded their rights and afforded 
equal opportunities, they lift up their families, their 
communities, and their nations.
    It is time that violence against women and girls became a 
concern of all of us. Thank you very much.
    [The prepared statement of Ambassador Verveer 
follows:]<greek-l>Melanne Verveer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you so much, Ambassador. And I have 
read your testimony and that of the other witnesses. And I 
would commend to all of my colleagues to read it. It is 
poignant, and it in some cases is heartbreaking in terms of the 
violence against women.
    I am going to waive my opportunity to question. I will go 
to the vice chair of this committee first, and then I will go 
to Mr. Rohrabacher, and we will alternate.
    Mr. Carnahan. And I would request my colleagues, because we 
are trying to get that third panel here in a timely way, I know 
there are some time constraints, if you could be succinct.
    Mr. Carnahan. As always, Mr. Chairman. Welcome, Ambassador. 
It is great to have you here, to have you speaking out on these 
issues.
    I apologize for running late, so I didn't get to hear it 
all. But I wanted to start with a few questions, in particular 
with regard to what actions the U.N. has taken to combat 
violence against women. In fact, how effective have the U.N. 
Security Council resolutions been in combating violence against 
women? And what steps have other member states, including the 
U.S., taken to implement those resolutions? And I guess, 
finally, what are the best efforts that we could take to 
supplement those actions through the administration and through 
Congress?
    Ambassador Verveer. Thank you, Congressman Carnahan. In 
areas of peace and security, as you know, Resolution 1325 was 
adopted almost 10 years ago now. In fact, the observance will 
come before us next year. And it basically said that in matters 
of peace negotiations, reconstruction of societies, the kinds 
of discussions that get made about where one goes during 
conflict in terms of ending that conflict, that women need to 
be part of the solution. And I regret to say that so far the 
record is not a very positive one, and that we have got a great 
deal of work ahead of us if the observance next year will be 
worth celebrating. So we all need to do a lot better to push 
women's participation. Because where it has occurred in post-
conflict societies, from Northern Ireland to Rwanda, et cetera, 
it has made an enormous difference for the peace holding and 
for the future security of all involved.
    In the same ways, Security Council Resolution 1820 that the 
U.S. promoted last year, that was adopted, addressed issues of 
sexual violence as connected to serious matters of 
international peace and security and needing to be dealt with 
appropriately. What the United States sponsored this year was 
an effort to strengthen that resolution to ensure that a 
special representative will be appointed by the Secretary 
General, and we need to ensure that that happens quickly and 
that happens with somebody who is tremendously equipped to take 
on the job to be the Secretary General's responsibility on 
these issues of sexual violence against women, as well as to 
make available a pool of experts who can go into countries 
before the worst happens and ensure that they begin to take 
steps on matters of impunity and other serious issues 
concerning the rule of law that result in these kinds of 
terrible calamities.
    In terms of other ways in which the United Nations has been 
active, as the chairman pointed out, there is an effort now to 
create a stronger entity to deal with these kinds of issues and 
other matters related to women.
    But UNIFEM, for example, has done tremendous work in its 
everyday work, but also with the trust fund that has been set 
up to which the United States has contributed. That has made 
such a difference on these issues. But clearly, the record is 
not one that any of us can take a great deal of pride in. There 
is a tremendous problem all over the world, and we need a much 
more serious, constructive, prioritized, strategic way to go at 
these issues, to engage them, to provide resources so that we 
can collectively do a better job.
    Mr. Carnahan. And just, I guess, one other quick one to 
wrap up is: With regard to having a central office at the State 
Department to focus on these issues, can you just give me a 
short answer of how effective that has been in terms of 
coordinating these efforts?
    Ambassador Verveer. Well, in a very short time already, 
Congressman, we have been able to do what the President and the 
Secretary have asked; that is, to integrate these issues into 
the overall work of the Department. And that means on issues 
ranging from Afghanistan to Iraq to what we are discussing 
today, we have been very much engaged in a significant way, and 
are continuing to find better ways that we can ensure the kind 
of outcomes I am sure all of you would like to see.
    Beyond that, the major initiatives of the administration 
that the Congress has been supportive of, like food security, 
climate change, the global health piece, all of them have a 
very serious lens applied to them on these issues with respect 
to women. So that the hopes are that we will get better 
outcomes because we are looking at them in a way where we can 
ensure that men and women are appropriately participating in 
ways that will help us achieve the kind of goals we want to 
see.
    Mr. Delahunt. Thank you, Ambassador. Mr. Rohrabacher?
    Mr. Rohrabacher. I will be very quick. I think that what we 
see in the Congress so often is just hyperbole and people 
talking. They come in here and they are very concerned about an 
issue that is very significant, and everybody is trying to 
prove how sincere we are, and we are going to beef up the 
language on this and that resolution and all that. I don't 
think, although I do believe consciousness-raising is 
important, and that is an important thing, I think that at some 
point we have got to have accountability factors put into 
policy that will make our moral pronouncements real. And I was 
wondering if we have any of those in place at this time.
    For example, do we permit Millennium account money or other 
assistance money to go to countries that have a standard of 
violation of women's rights that is unacceptable?
    Ambassador Verveer. Well, I don't think we have that as 
such, Congressman, but as you know, for example, the 
Trafficking Report rates countries on the basis of their 
providing appropriate actions with respect to that tremendously 
difficult challenge.
    Mr. Rohrabacher. What penalties do they pay if they get bad 
ratings?
    Ambassador Verveer. Well, there are penalties that are in 
there. I am not familiar with what has happened specifically on 
them. But you make a good point. These issues have been raised 
in bilateral discussions. They are not off the table. You are 
right, rhetoric alone is not enough. And we have to do all that 
we can to move things forward.
    Mr. Rohrabacher. I will tell you something. As I say, human 
rights is an important part of my agenda. But when you sit down 
over the years, all these people who claim to believe in human 
rights but they don't want to have any penalty for China to 
pay, even though it is the world's worst human rights abuser on 
a scale because of its bigness and also the nature of its 
regime, but there is never a penalty to pay. And when you sit 
down with a gangster, a thug who is abusing his people, when 
you bring up an issue, whether it is women's rights or other 
human rights issues and you just bring it up and then you walk 
away and there is nothing, no penalty to pay for it if he 
hasn't listened, you might as well not have brought it up, 
because what you have given him is a bad lesson. You have given 
him a lesson that what we are doing is just verbalizing things, 
and that is all that counts, is that we are able to verbalize 
something, not that we are really looking for any results 
because we haven't made any demand on you.
    Do you have a list of demands? Maybe we can ask that.
    Ambassador Verveer. You know, Congressman, I don't mean to 
sort of take a pass on this, but I have been there in a very 
short time. But I can tell you in the time, in the last few 
months, I think we have brought a great deal to bear on the 
situation in DRC. Now, that is a terrible conflict that has 
been going on for a long time. But we have tried to bring an 
array of responses, including--I was with the Secretary when 
she raised these issues with President Kabila and other members 
of the government there, and has been consistently since 
working to try to bring about change on several levels. These 
things did not happen overnight, and we have to do all that we 
can with the arsenal of tools we have.
    Mr. Rohrabacher. It didn't happen overnight, but I have 
been hearing hyperbole here for 20 years. And let me just note, 
unless people have penalties, all of the good verbs and 
verbiage, that doesn't mean anything to these people. And we 
have a President who goes over and apologizes to Iran that we 
helped--that we unjustly interfered with their country so many 
years ago, and didn't bother to bring up the murder of their 
own activists, and especially the rape of women in Iranian 
jails. Didn't happen to bring that up. No, we were too busy 
apologizing.
    Now, I will tell you, I think this is an important issue, 
and I think a lot of things about human rights are important. 
And if you want us to be taking things seriously, let's make 
demands on people who are violating women's rights and say, I 
am sorry, any country that doesn't meet a certain rating that 
you have now been determined that you violate women's rights 
and other human rights to this point, you are no longer 
eligible for this, this, and this.
    And you know, maybe our Export-Import Bank doesn't want to 
do that because they like to loan money to dictatorships, 
because then they can have their country, you know, paying off 
these loans for the rest of their lives, or the interest on 
these loans.
    So I would suggest that maybe as you go forward on your job 
that you come back to us with some specific suggestions of what 
we can do that will penalize people so they will know that our 
words mean something, rather than just expressions of some good 
feeling. So thank you very much, Mr. Chairman.
    Mr. Delahunt. Are there any other questions for the 
Ambassador? Congresswoman DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman. And I 
particularly want to say thank you to you for allowing me to be 
able to participate on this committee hearing, because I am not 
a member of the subcommittee, but have done some work in the 
area. And I want to thank--I wasn't here for our colleague, Jan 
Schakowsky, but thank her and the Ambassador, and Mallika Dutt, 
Representative Smith, Nicole Kidman, all of you are working to 
raise the profile on this issue, and what it is we can do to 
address it.
    Let me just say one or two things. I love the notion that 
we ought to come back now and deal with penalties. My question 
is where were we in Srebrenica? Where were we years ago when 
some of these things were there? And you know, our voice has to 
be constant, our voice has to be consistent. It doesn't make a 
difference where we are and who is in charge and so forth. It 
has to be a consistent voice.
    I applaud the work that you and the Secretary are doing 
with regard to the issue of violence against women and, in 
fact, how it impinges on national security in so many ways, and 
that we have to address it.
    I wanted to talk to you about the issue of--my view is 
poverty contributes to gender-based violence, and gender-based 
violence contributes to poverty. It keeps women from getting an 
education, women from earning an income. And I think the 
facts--and you would be a good person to talk to us about 
this--women who have economic opportunities experience less 
violence and have more options in the face of that violence. 
Research shows that when women get more resources they put 
their money into making sure their children have better 
nutrition, education, health care, strengthening families and 
communities over time. And the data is there.
    So, in that context, what I am trying to get at, and you 
can deal with the issues of penalties, that is fine. But what I 
want to know is what is it that we can do as the United States 
Congress, in this instance the House of Representatives, in 
terms of what are the good economic opportunities, how do they 
translate into benefits to women internationally and the issue 
of violence? What are the innovative programs that we can 
engage in and that we can initiate that would have some impact 
internationally for women?
    We can't take on the whole ball of wax. We are not going to 
solve it all at once. But discretely, what are the issues or 
the efforts that we can make, pass legislation, provide 
resources for, to address the issue and not to pontificate, not 
to lay blame, but take it on; and if we believe we have a moral 
responsibility to do something about what is happening to women 
overseas?
    Ambassador Verveer. Thank you, Congresswoman. And this fits 
very much with the theme of today's hearing, which is stories 
and solutions. And there is a very close relationship between 
poverty, lack of opportunity, desperation, the low status of 
women, and the need to rectify that.
    And you know, when you look at violence against women, it 
is not that there is one magic program that makes all the 
difference, but it is critical that education and economic 
viability are absolutely important tools to address this 
problem beyond the array of other protections that are required 
and rule of law programs to ensure that the perpetrators are 
prosecuted.
    But in terms of economic development, we know what works. 
We have seen how small amounts of credit, microcredit, what it 
has done all around the world to change the lives of women and 
enable them to contribute to their families. We need to grow 
those micro-businesses to small- and medium-sized businesses 
and provide the kinds of incentives to get to the next place. 
And among the best things we can do is ensure that women's 
capacity, training and other capacity-building opportunities 
are there so that they can move to that place and be competent 
at it.
    And one of the tremendous changes I think that has been 
occurring, and we have alluded to, is the need to come together 
in a more collaborative way, with the business community as a 
partner. You know, I don't think we would have a violence 
against women law in this country potentially yet if many 
Members hadn't been persuaded that there is a connection 
between violence and the diminution of our own economic 
productivity. We pay a price in terms of economic productivity.
    Well, it works the other way too. Where there is this 
contribution to the economic life, women are less put in 
situations where they are abused. So we need to do more in 
terms for the prevention.
    We usually talk about prevention in terms of raising 
awareness. Well, a lot of prevention is investing in creating 
economic opportunity here and overseas, obviously. But 
microcredit, capacity building, training for management and 
business, a lot of the kinds of programs that we are doing now 
in Afghanistan with respect to agriculture and animal 
husbandry, very small artisan kinds of projects, sustainable 
work, the kind of programs we are doing even in DRC to heal 
women to come back and provide for themselves economically. 
These do make a difference. Thank you for that.
    Ms. DeLauro. If it would be helpful, it would be helpful to 
me, I suspect it would be helpful to the committee members, if 
we could work with you on the specifics of what those programs 
are. What in fact could be the increase in resources? Sometimes 
with these programs, you know, we are not talking about 
billions, you know, as we do with some programs here, but how 
you can truly make a difference, I think, with health issues, 
with the issues of fistula for women and how we can help deal 
with that problem.
    You know, it is interesting to note in our own country in 
terms of health insurance, you know oftentimes violence against 
women can be considered a preexisting condition. So we have to 
think about what we are doing here as well. But it would be 
enormously helpful to get that kind of a blueprint, if you 
will, so that we can start to move forward on these issues.
    Ambassador Verveer. And we are also looking in a more 
concerted way at the array of programs that we do support to 
create systems of metrics and measure outcomes so that we can 
actually show you the kind of benefit correlations that exist.
    Ms. DeLauro. I think it is interesting to note that women 
are the world's farmers. You talked about agriculture. Most of 
the farmers in the world are women. And what we might be able 
to do--and I chair the Appropriations Subcommittee on 
Agriculture, which is why this is of interest to me--what we 
can do in order to assist with the productivity of the land.
    Ambassador Verveer. Right.
    Ms. DeLauro. We have spent a lot of time on emergency 
funding, which we need to do on many occasions. But it is about 
productivity and land and agriculture so that they can become 
self-sustaining. I appreciate your work, but I need your help.
    Ambassador Verveer. That is really significant, because 
food security is a very big initiative that the Congress is 
involved in, administration is involved in. And the great 
majority of smallholder farmers in sub-Saharan Africa, Asia, 
are women. If we don't have programs that respond to them where 
they are in terms of moving this out, whether it is training or 
credit or land reform, which is so critically important, we 
aren't going to have the kind of agriculture productivity that 
could result. So you are exactly right, these are all in our 
interest.
    Ms. DeLauro. Thank you very much. Thank you very much, Mr. 
Chairman.
    Mr. Delahunt. I think we have a final question from the 
gentleman from California, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Ambassador, child marriage, honor killings, human 
trafficking, denial of education, far too prevalent in many 
corners of the globe. And my chief of staff has traveled and 
worked with these victims of human trafficking. The stories 
that she has told, returning from countries like Cambodia and 
India, are really horrific. Girls as young as three or four 
sold into prostitution because they have no value to their 
parents.
    And one of the questions I was just going to ask you, the 
question refers to a Tier 3 country, which is Burma, one of the 
worst offenders in this regard. I know that the administration 
is going to have high-level negotiations with the Burmese 
officials.
    Have you requested that this be at the top of the list in 
terms of the discussion points, ending this type of abuse that 
is going on in Burma today?
    Ambassador Verveer. Congressman, it is a very serious 
issue, and the engagement that has been discussed is predicated 
first and foremost on issues with respect to the opposition and 
human rights. So these issues are very much on the table.
    And it is not just trafficking. And it is terrible, and I 
have been to the border, I know what happens in that part of 
the world. But it also has to do with the rapes that are 
occurring and the kind of human rights record that has been 
well documented.
    Mr. Royce. Yes, systemic rapes in Burma. Thank you, 
Ambassador. Thank you, Chairman.
    Mr. Delahunt. Thank you, Congressman. And thank you, 
Ambassador, for your testimony. And I am sure that we will be 
communicating and addressing the concerns that have been 
expressed by members, including the gentlewoman and my friend 
from California, Mr. Rohrabacher.
    And now we will proceed with our third panel. As our 
witnesses come to the table, let me provide the introductions. 
This panel is comprised of three unique voices on violence 
against women.
    Testifying first will be Linda Smith. Congresswoman Smith 
was elected in 1994 to represent Washington's Third 
Congressional District. While still in Congress, she founded 
Shared Hope International, which builds partnerships with local 
groups to provide homes and shelters where women and children 
of abuse can seek refuge. She has also founded the War against 
Trafficking Alliance, and has been a passionate advocate for 
women affected by trafficking and abuse, both domestically and 
abroad. Linda, it is good to have you back. We are proud of the 
work that you have done. And keep it up.
    Next we will be joined by Mallika Dutt, the founder and 
executive director of Breakthrough. Breakthrough is an 
international human rights organization that uses the power of 
popular culture, media, and community education to transform 
public opinion and attitudes. Breakthrough addresses critical 
global issues, specifically those dealing with the plight of 
women. Thank you for joining us here today.
    Finally, I am happy to introduce Nicole Kidman. In addition 
to being an Academy Award-winning actress, since January 2006 
she has served as a Goodwill Ambassador for the United Nations 
Development Fund for Women. As UNIFEM Goodwill Ambassador, she 
has worked to raise awareness on the infringement of women's 
human rights around the world, with a particular focus on 
addressing the issue of violence against women. Welcome.
    Ms. Kidman. Thank you.
    Mr. Delahunt. And I guess I am supposed to add, or I should 
note that in 2009, the United States Government contributed 
$4.5 million to UNIFEM's core budget to empower women and 
strengthen women's human rights, approximately 2 million for 
specific projects, and 2\1/2\ million to the UNIFEM-managed 
U.N. trust fund to end violence against women. Ms. Kidman, 
thank you also for your service. And we are interested to hear 
from all of you.
    Let us proceed with Congresswoman Linda Smith.

STATEMENT OF THE HONORABLE LINDA SMITH, PRESIDENT AND FOUNDER, 
 SHARED HOPE INTERNATIONAL (FORMER MEMBER OF THE U.S. HOUSE OF 
                        REPRESENTATIVES)

    Ms. Smith. Thank you, Chairman Delahunt.
    Mr. Delahunt. Linda, you forgot, you got to hit; when you 
are on that side of the table, you have got to hit that button.
    Ms. Smith. There we go. It has been 11 years. There we go.
    Chairman Delahunt, Ranking Member Rohrabacher and 
distinguished members, it is an honor today to testify with 
such a distinguished group of presenters both before and on 
this panel. First I would like to say I will summarize my 
comments, but I would like to request that my full written 
testimony be submitted for the record, and that the research 
documents DEMAND and the National Report on Domestic Minor Sex 
Trafficking that are the foundation for my testimony be 
submitted for the Congressional Record.
    Mr. Delahunt. Without objection.
    Ms. Smith. For nearly 11 years now, Shared Hope has been 
committed to building communities around the world that restore 
and empower women and children in crisis. We have particularly 
focused on trafficked women, but the line blurs in any kind of 
sexual violence. We do this through Villages of Hope, and we 
founded them around the globe. We don't put flags on them 
because bad guys like to pick up the product again.
    Commercial sex is extremely violent. In all the countries 
that we work in and we researched, commercial sex is violent. A 
large portion of our budget at Shared Hope International is for 
the restoration, healing and treatment of diseases created and 
caused by commercial sex.
    We found common forces throughout the world destroying the 
lives of girls like Renu. Renu is from Nepal. Renu spent 4 
years in sexual slavery. When she was 14, she was told by her 
brother that she could go on a little trip with him to the 
village. He drugged her, moved her 1,000 miles south to Mumbai, 
India, where he sold her to a brothel. Her story shows that 
even though the country of India has laws, reports, and 
commitment to fight trafficking, this girl for 4 years was sold 
every day to 20 and as many as 40 men, every day, every day.
    The laws did not hinder her sale for a reason: Because 
there is a local, active, culturally accepted sex market. This 
culture toward men buying sex has created a market that puts 
Indian and Nepalese girls in constant danger of kidnap, rape 
and the violence of commercial sex. And why? Because they are 
just providing a product to market.
    This painful story varies only slightly from the core 
elements of trafficking in other countries. And I have girls 
that I restore now as much as 11 years who are in college, 
having children, married, but it is very similar. And now over 
the last 4 years, rescuing and restoring in the United States 
children the same age as the middle-school age of my 
grandchildren has become a part of my life.
    Tonya's story demonstrates this. Tonya was only 12 years 
old when, on the way to school--she is a gifted child--she 
walked for 6 months, and the man approached her. Each day he 
approached her, he built a relationship. It was okay, he wasn't 
a stranger, he was a nice man. Well, one day she got in the 
car, it was probably something like raining, and she didn't 
appear again.
    Well, she really did appear, because we found her in the 
system. But let me tell you some of her comments in the 
interview that I did with her after her pimp was arrested, and 
you will want to know he is in jail for a long time. Let me 
share with you just a little bit of her interview: It didn't 
take long before I experienced the real treatment, being 
beaten, stomped on, manipulated and sold all day every day. 
When I think about how it must have looked to people, a baby-
looking girl like me with an older boyfriend, it makes me 
wonder why no one was ever there to stop it or even ask any 
questions at all. It is a very strange world when you are in 
it. It is a very strange world, she said. In a really screwed 
up way I had a family. Each time I was arrested and transferred 
from out of State back to Ohio, it was in handcuffs and leg 
shackles, and I was surrounded by policemen that I felt were my 
enemies.
    I felt like I was hearing from Renu right here.
    Despite my age, I spent 8 months in prison when my pimp 
caught a Federal case. Yes, I am the one that went to prison, 
and I will say to you, yes, I am talking about America today.
    Well, the severity of trauma bonding keeps girls like Tonya 
bound in these situations worldwide, but cultural and official 
inability to see them as victims and the continuing use of 
terminology such as ``child prostitutes'' prevents entire 
cultures from perceiving the victimization and, as a result, 
fails to prioritize the pursuit of demand reduction as a 
solution to this particular form of violence against women. 
Demand for commercial sex with unempowered women and children 
is one of the greatest reasons that violence against women 
thrives in many cultures.
    Now, at the conclusion of the research, and we have 
researched now 4 years in the United States and around the 
world looking at markets, Shared Hope has accumulated 
information that strongly suggests a national crisis in the 
United States, a security crisis. Our youth, our middle-school 
kids, are at risk of extreme violence through prostitution. 
Astoundingly, the number of prostituted children in America is 
at least 100,000. Now, that is each year. The National Center 
for Missing and Exploited, who has written the foreword to a 
book I have written from the voices of these children, they say 
it is as high as 300,000. We can document that there is at 
least 100,000. The average age of these girls--the youngest 
that I have heard of is 11, many times they are 12--the average 
age is 13.
    Sex trafficking is an international crime and an 
international form of violence against women, and America is a 
part of that international community. As a requirement of the 
Trafficking Victims Protection Act, each year we do evaluate 
the other countries, and I commend Congress, any of you that 
worked to pass that bill. It passed right after I left. India's 
evaluation in the TIP Report rates India lower for a couple of 
reasons, several reasons, but two are they don't provide 
protection or justice to the domestic children trafficked 
within India, and they do not arrest the men that buy the 
children. They are a country on watch. Many of us think they 
should be a country that is a Tier 3 and stays there until they 
change.
    Well, with the knowledge of 100,000 or more American 
children prostituted in commercial sex in the United States, 
the men that arrest them are not brought to justice--there was 
not even a charge brought against one under the Federal act 
until February of this year, and with no penalty, in most 
cases, at all for the facilitators, we must ask how would the 
United States fare if other countries rated us on the 
trafficking of individuals in the United States.
    Now, as a woman, I am thankful I am in a country where I 
can sit here before a committee of men who are taking it easy--
excuse me, taking it seriously, not taking it easy. That will 
be the quote.
    Mr. Delahunt. I can assure you we are not taking it easy.
    Ms. Smith. I know you are not. And I am proud of America. 
But when I got done with the research--first of all, I thought 
I am going to retire totally; I am not going to just retire and 
then retire, I am going to retire. Because I saw the undercover 
footage and faces of little girls as young as my 
granddaughters--they are now 13 and 14 years old, but they were 
a couple of years younger when I started this. But I couldn't 
because there was another little girl. It was a police arrest 
case. We went into the arrests of the children in the United 
States who were traffic victims, and we started looking at 
their cases. When we started looking at them, some folks gave 
us some inside, some arrest records. And should we have them? I 
don't know, but I got them. Adding that to the video of the 
undercover research we did, I decided I had to do something.
    This example is a 12-year-old, which I found so very common 
around the United States. The declaration of arrest brought in 
that the officer wrote said this: After watching the truck slow 
down and the female approach the truck, then later finding the 
truck on a side street with the female in the truck, through my 
training and experience, I know this is a common practice for 
prostitution-related crimes. We then approached the vehicle and 
came on a juvenile, date of birth--she is 12--and a male, date 
of birth--he is 48--involved in a sex act.
    Due to the above circumstances, the stated agreement for 
$40 for a hand job, observation that he had $45 in U.S. 
currency hanging from his left front pocket, had lotion on both 
hands, she stated she was engaging in prostitution, she was 
placed under arrest for soliciting prostitution and was 
transported to jail. Probable cause--I will not say which jail 
it was--probable cause exists to hold said person pending plea 
and trial.
    The outcome of this arrest I had thought would be the 48-
year-old man. Well, the little girl was handcuffed, she was put 
in the vehicle. The man was allowed to drive away. When I saw 
this, I thought, no way. So we went out to 11 more States, 11 
more assignments under a Department of Justice grant, and we 
found the same in every city, every city, every environment in 
the United States.
    Well, we submitted next steps for each city, but the latest 
research that we just had delivered to your offices is the 
National Report on Domestic Minor Sex Trafficking.
    Mr. Delahunt. Linda, I am going to ask you to wrap it up. 
We are going to take a good look at that data. Those stories 
are very, very powerful and they really speak for themselves.
    Ms. Smith. In conclusion, in conclusion, the devaluation of 
these children really makes it so America to stand, as we look 
at other nations, needs to look at ourselves. Yes, Renu is 
important in India, Tina is important in Fiji, but this little 
girl in this case is just as important. She is in jail again. 
They gave her back to her pimp by letting her out. She is, at 
15, back in jail. The pimp is not in jail, and none of the 
6,000 men a year that have bought her since have gone to jail.
    With that, I want to thank you for listening to this very 
tough issue and taking a really tough stand. Thank you.
    [The prepared statement of Ms. Smith 
follows:]<greek-l>Linda Smith deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you. And you give us a certain 
perspective when we talk about responsibility and 
accountability in introspectively examining ourselves.
    We will now proceed with Ms. Dutt.

STATEMENT OF MS. MALLIKA DUTT, FOUNDER AND EXECUTIVE DIRECTOR, 
                          BREAKTHROUGH

    Ms. Dutt. Thank you, Chairman Delahunt, Congressman 
Rohrabacher, members of the committee, for giving me this 
opportunity to talk with you today about how we can all join 
hands in ending the pandemic of violence against women. I have 
been working on this issue for the past 25 years and have dealt 
with all of the forms that you have heard described today, 
whether it is female infanticide, domestic violence, dowry-
related deaths, trafficking women; and for the last 10 years I 
have been running Breakthrough, which is, as Congressman 
Delahunt described, an international human rights organization 
that uses mass media prevention tools to really challenge 
violence against women.
    And I would like to share with you a story of a campaign 
that we have been undertaking in India for the last year. Bell 
Bajao, which means ``Ring the Bell,'' is a multimedia campaign 
that calls on men and boys to take a stand against domestic 
violence. It was launched last year with support from the 
UNIFEM-managed U.N. Trust Fund to End Violence Against Women, 
and I commend the United States for their support of UNIFEM. 
And we entered into a pro bono partnership with an advertising 
agency called Ogilvy & Mather and the Ministry of Child and 
Women Development in India joined us as a dissemination 
partner.
    Since the campaign launched last fall, we reached more than 
130 million people in India alone through a combination of 
television, radio and print ads. And thousands of young men and 
women have joined community-based organizations around the 
country to take Bell Bajao into homes, communities, malls, 
workplaces, all kinds of spaces, with one simple message, that 
ending domestic violence is everyone's responsibility.
    The stories that I want to share are a little bit different 
from the violations that you are hearing about. I want to tell 
you some of the stories of people taking action, because it has 
been very exciting for us to see how a call to action that is 
inclusive, that is bottom up, that includes men and boys 
actually can show results. So there are three short little 
stories that I want to share with you.
    In a small town called Mandya, which is in the State of 
Karnataka in India, which is where the city of Bangalore is in 
which is probably a place that you might recognize and know, a 
group of teenagers, after watching the Bell Bajao ads, decided 
to go and listen to television in their neighbor's home every 
evening because they noticed that there was a pattern of his 
beating his wife when he returned home from work. And they 
continued to just go hang out at the neighbor's house every 
evening for a long period of time. And even after they stopped, 
they discovered that the beating had stopped, that they had 
actually intervened and taken an action that was positive.
    In the city of Kanpur, which is a big city in the State of 
Uttar Pradesh, a protection officer who was responsible for the 
implementation of the Domestic Violence Act in India took a 
pledge after being exposed to the Bell Bajao campaign that he 
would redouble his efforts to prosecute as well as raise 
awareness. And in preliminary studies that we have done in 
areas of intervention, we have seen a 15-20 percent increase in 
reporting under the act since Bell Bajao came around, which has 
also been extremely encouraging.
    I am going to read to you an e-mail that we got on our blog 
from a young woman called Christina Lobo, who lives in an 
apartment building in Mumbai. And she says,

          ``There is a women in my building who goes to hell 
        and back once a week while all the neighbors sit 
        quietly in their flats pretending to have heard 
        nothing. Last week the screaming and crying started at 
        8 a.m. It stopped when her husband left for work. Come 
        8 p.m., the husband was home again, and then it started 
        again. By 1 a.m. the screams were louder than ever.
          ``I couldn't take it anymore and marched upstairs 
        with my dog Kelly and rang the bell. Her husband shooed 
        my dog out and told me not to interfere, but I haven't 
        heard any more screams since then. I hope it stays that 
        way. I won't hesitate to ring the bell again and call 
        the cops, too.''

    This campaign, Bell Bajao, Ring the Bell, is just one 
example of the kinds of initiatives that women are taking 
around the world to fight for their lives. In villages and 
towns in every corner of the world, women are challenging 
social and cultural norms and laws that make them second-class 
citizens. They are engaging in courageous acts to stop the 
pandemic of violence that permeates their lives and denies us 
all the talents and strength of half the world's population.
    I ask you to imagine how the voices of these hundreds of 
thousands of women could be strengthened if IVAWA became a 
reality. An American foreign policy made the ending of violence 
against women a priority in our diplomacy on foreign aid. As 
you consider the provisions for this new act, I urge you to 
keep in mind some of the following recommendations, which are 
lessons that we have learned from best practices of the work 
that we have been doing for the last 10 years.
    Invest in partnerships with local organizations and 
encourage bottom-up initiatives that can work effectively in 
their own context and create long-term, sustainable change.
    Maintain a focus on women's empowerment while partnering 
with multiple stakeholders, men and boys, community leaders, 
religious institutions, business heads. It is everybody's 
problem.
    Make youth outreach and participation a key priority. That 
is a great way to transform cultural norms that permit violence 
against women, and also to build the next generation of human 
rights leaders.
    Through strong leadership and local partnerships across a 
range of actors, the International Violence Against Women Act 
can have a direct and immediate impact on saving the lives of 
millions of women and girls. For a small investment the U.S. 
could see an enormous return, that of ensuring that women and 
girls can realize their potential and contribute more fully to 
society.
    Thank you so much for the leadership that you have 
demonstrated in moving this agenda forward and for ensuring 
that women's rights, in fact, can be human rights. Thank you.
    [The prepared statement of Ms. Dutt 
follows:]<greek-l>Mallika Dutt deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Ms. Dutt.
    And, Ms. Kidman, please proceed.

   STATEMENT OF MS. NICOLE KIDMAN, ACTRESS, UNIFEM GOODWILL 
                           AMBASSADOR

    Ms. Kidman. Thank you, Chairman Delahunt, Congressman 
Rohrabacher, Chairman Berman and members of the committee, for 
granting me this opportunity to speak in my role of Goodwill 
Ambassador for the United Nations Development Fund for Women.
    Violence against women and girls is perhaps the most 
systematic, widespread human rights violation in the world. It 
recognizes no borders, no race or class. I became UNIFEM's 
Goodwill Ambassador in 2006 to amplify the voices of women and 
shine a light on solutions that work and make a lasting 
difference.
    Until recently violence against women and the instability 
it causes hid in the shadows. I think the attention today 
underscores a new recognition that the issue is urgent and 
really deserves to be center stage. And while I have learned a 
lot by working with UNIFEM, I am far from an expert. I am here 
just to be a voice. I rely on people I have met to make the 
case.
    A year ago I was honored to talk with Marie Zaina from the 
Democratic Republic of the Congo. Like the speaker who just 
spoke, Mallika Dutt, Marie's work on the ground merited a grant 
from the UNIFEM-managed United Nations Trust Fund to End 
Violence Against Women. Through contributions, including 
essential funding from the United States for which UNIFEM is 
very, very grateful, the Fund promotes the implementation of 
existing commitments. There are laws in many countries to end 
discrimination against women, to punish rape, to outlaw spousal 
abuse, child marriage and more. But in the real world the laws 
go unenforced, and impunity is the norm.
    I learned from Marie that she was a survivor of violence. 
Forced by her father into an abusive marriage as a young adult, 
she fled after her first pregnancy, found support to further 
her education through a religious organization, and confronted 
with the cruel impact on women and girls from the continuing 
conflict in the DRC--where rape is systematically used as a 
tactic of war--Marie took action. She started an organization 
to help victims of violence, mostly widows and orphans, many 
affected by HIV/AIDS. Over the years she built a national 
network of NGOs to care for survivors and empower women. And 
with the Trust Fund grant, her group expanded services to 
include medical care, counseling, legal and economic support. 
Marie fully understands the need for a comprehensive approach.
    Another time when I visited Kosovo, I met and listened to 
women sharing experiences. One of them told me how she was 
raped repeatedly and abused by soldiers, leaving her with 
lasting physical and psychological scars, and also leaving her 
pregnant. Yet she did not remain silent. Together with other 
women's rights advocates, she bravely took her testimony on how 
mass rape shatters lives and communities to the International 
Tribunal for Yugoslavia, a legal landmark for prosecuting rape 
in wartime as a crime against humanity.
    Now, these champions need and deserve our support not with 
a box of Band-Aids, but with a comprehensive and well-funded 
approach that acknowledges that women's rights are human 
rights. It is time for policies that intentionally involve 
society's key communities, from health and education 
departments to the police and judiciary, to deliver on that 
commitment. The plan must build strong alliances with men and 
collaborate with faith-based and traditional leaders. To 
succeed, it requires political will at the highest levels.
    Violence against women deprives countries of a critical 
resource in the struggle to end poverty and attain 
sustainability. Economists confirm that women's empowerment is 
an essential engine for development. If they cannot 
participate, the targets governments and the U.N. set will 
continue to be unmet.
    So I commend the efforts that have gone into drafting of 
the International Violence Against Women's Act, and in 
particular, I appreciate the consultation with the real actors 
and the beneficiaries to incorporate best practices and 
effective approaches. Everyone I work with at UNIFEM and I 
believe that IVAWA, when passed, will be a beacon lighting the 
way forward for other countries.
    My stories and the other stories here illustrate the impact 
of violence against women on individuals, families and 
communities, but IVAWA rightfully links the consequences of 
violence against women to global goals: Economic development, 
stability and peace, improving health and reducing HIV/AIDS.
    If you are shocked, which I was, by the recent reports from 
Guinea with the searing images captured on cell phones showing 
gang rapes by government forces in broad daylight, do you 
wonder how those women can resume their lives when their 
perpetrators walk the street fearing no punishment for their 
crimes?
    Violence against women is not prosecuted because it is not 
a top government and urgent social priority. We can change 
this. We can change it by exerting leadership, making wise 
investments and building local partnerships. Based on UNIFEM 
and the Trust Fund's ``lessons learned,'' IVAWA represents an 
effective cross-cutting approach that elevates the issue so it 
will count and be counted.
    I want to thank the Members of the Congress for listening. 
I commend them for their efforts to make ending violence 
against women the top priority it must become. After all, a 
life free of violence is our human right.
    [The prepared statement of Ms. Kidman 
follows:]<greek-l>Nicole Kidman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you. Thank you very much, Ms. Kidman. 
And thank you for lending your voice to this particular issue 
and allowing us to utilize your celebrity. It does make a 
difference. Believe me, if we did not have a panel such as we 
have before us now and the testimony of Ambassador Verveer, as 
well as our colleague Ms. Jan Schakowsky, and all of the women 
in the U.S. Congress that are involved in these issues, and it 
was just Rohrabacher and Delahunt, this would be a very--and 
Burton--this would be a very empty room right now. So you are 
making a magnificent contribution to raising the awareness of, 
and the implications, the far--the profound consequences of 
this issue and how it impacts all of us. So let me say thank 
you to all of you.
    And we are joined by another of our female colleagues who 
is an advocate on this issue. And let me go to Sue Davis from 
California and ask her if she has any questions and wishes to 
make a statement.
    Mrs. Davis. Well, thank you, Mr. Chairman. And I am 
delighted to be here. I really came to listen and to really 
thank you for being here as well. I am sorry I was not able to 
be here for the earlier panels, but perhaps you could talk a 
little bit about prioritizing, because I think sometimes we get 
a bit overwhelmed by this problem. And we see in many places, 
and I would cite my opportunity to travel to Afghanistan to 
meet with women there, trying to see that we have certainly a 
generational problem, sometimes a two-generational problem, but 
at the same time we want to try and really address what exists 
today.
    I was very surprised in traveling there and meeting with a 
number of women, and Ambassador Verveer is aware of this, that 
women who feared for their security daily also spoke a language 
of empowerment. That really surprised me.
    I know we need sustained efforts; we need comprehensive 
programs, as you said. How, if we have, you know, a very 
ambitious agenda of what we want to do, how would you help us 
to really prioritize what is the most significant? Sometimes we 
really want to address the educational piece so we reach people 
quite young, but, on the other hand, we know that people are 
suffering today, women are suffering, we have to reach them 
today. And whether it is microloans--sometimes, you know, it is 
economic empowerment. What could you tell us about how we could 
think through that priority?
    Ms. Kidman. I mean, I will answer that. I think the reason 
I am here is to try and get attention for this bill and to get 
the bill passed. I think the bill has been put together by an 
enormous number of people. It is step by step. I don't think 
there is a single priority. I think it covers all bases. I am 
not fully versed in the whole bill, but there are experts who 
are, but I do believe that it is dealing with women as a whole. 
So it is dealing with education, it is dealing with providing 
health services and shelters, it is dealing with enabling the 
laws actually being upheld.
    So I actually think it is comprehensive, and therefore, 
there isn't one particular thing that it is focusing on, but it 
is brilliantly laid out, from how it has been explained to me. 
And I know that it has taken 7 years to put together, so it is 
not something that has been done in a superficial way. That is 
my answer.
    Mr. Delahunt. Thank you.
    Mrs. Davis. If you would choose to comment on that, if you 
wanted to add anything additionally.
    Ms. Dutt. Well, one of the reasons that there is a key 
recommendation in IVAWA to focus on 10 to 20 countries for 5 
years as a learning experience and to ensure that we document 
best practices is precisely because of the issue that you have 
just raised. Violence against women takes so many forms that 
one of the lessons that we have learned is that a comprehensive 
approach is really the best approach. And in order to be 
effective in that, the recommendation is that a large chunk of 
the money that is being recommended as part of this bill would 
focus on 10 to 20 countries which would be identified across a 
range of criteria, with a certain allocation for women in 
countries of conflict to deal with emergency and humanitarian 
situations. And sure there is much greater expertise in the 
room on these questions, but that is exactly why there is this 
recommendation around this focus.
    Mrs. Davis. Thank you, Mr. Chairman.
    Ms. Smith. Just briefly. I don't believe that we take 
women's rights seriously around the world, because we do not 
enforce the laws that would protect them. And we do turn our 
back and say other values are greater, whether it be economic 
or cultural. If we are serious around the world as Americans, 
we will be serious about our other policy that does have 
sanctions. If we are not serious about the sanctions, whatever 
they may be, then let us just remove the law and the policy, 
because we are not taken seriously.
    Now, I have spent 11 years traveling, rescuing little 
girls, raising them around the world in every country, 
including the Netherlands, and if we say that men are allowed 
to do certain things because of culture, whether in Indonesia 
it is an 8-year-old wife, or whether it is in Tokyo because 
most men are buying sex, it is irrelevant what we do with the 
rest. We have to culturally say what I think I heard earlier 
from one of the members: We cannot tolerate because of 
religion, because of culture anything that demeans or harms 
women.
    Trafficking in America--and I am going to say it in 
closing, and I know you are going to want me to close, 
Chairman--if we continue as Americans to have our middle-school 
children trafficked and sold to common men in the United States 
while we are crying out for human rights for other countries, 
we will not be seen as credible, and we will not have any of 
our foreign policy serious in protecting women.
    We can put money into it all we want, but I don't think we 
are going to get very far. So I would challenge you again, be 
serious about our policy, put teeth behind the laws and rescue 
America's children also.
    Mr. Delahunt. Thank you, Linda.
    Let me next go to my friend and colleague from Texas, Judge 
Poe.
    Mr. Poe. I want to thank all you all for being here. Mr. 
Chairman, ``all you all'' is plural to ``you all.'' Get through 
the language barrier there.
    Mr. Delahunt. What did you say?
    Mr. Poe. All five of you for being here today.
    Probably the most influential person in my life was my 
grandmother. She lived to almost 100 years of age. She said a 
lot of wise things. But one thing she taught me, and I 
believed, was that you never hurt somebody you claim you love. 
She was right when she said that, and that is a true statement 
today.
    She also said there is nothing more powerful than a woman 
that has made up her mind. I think we have a lot of women here 
in this audience testified, and, of course, our colleagues in 
the House, both Republicans and Democrats, who are females that 
have made up their mind about this issue. You would be glad to 
know, Mr. Chairman, that my grandmother was a Yellow Dog 
Democrat and never forgave me for being a Republican until she 
died, so you would like her.
    Mr. Delahunt. She was a brilliant woman.
    Mr. Poe. That is right. I knew you would say that.
    But anyway, as the chairman indicated, in my other life I 
was a judge. I saw the real world for 22 years, tried criminal 
cases, and saw thousands of young women come to the courthouse 
as victims of crime, and many of them had been brutalized by 
people they knew, men who they knew.
    And I agree with you, Congressman Smith, the United States 
has to get its house in order and take care of what is taking 
place here not just in domestic violence, but the human 
trafficking that takes place in our own country. If a young 
female is trafficked in the United States, she is treated as a 
criminal. If she is from a foreign country and trafficked in 
the United States, she is treated as a victim. And we treat 
them differently. Women in the United States, young girls who 
are trafficked, they are arrested for prostitution, they are 
put in jail.
    We have to reexamine that whole issue before we can really 
move forward with recognizing the importance of women's rights. 
I certainly believe that women's rights are a human rights 
issue, but it is also a public health issue. Our country talks 
about health care. We ought to talk about the health of 
America's women who continue to be assaulted by other people in 
this country. That is a health issue that I think is very 
important that we deal with.
    People who have assaulted each other or assaulted people 
that they claim they care about brings to mind a lady not far 
from here by the name of Yvette Cade. Ms. Cade, a wonderful 
person, she was divorcing her husband. She went to court to 
represent herself to get a restraining order to make sure he 
left her alone while the divorce is pending. The judge denied 
her request. He got out of jail, he found her at her business, 
and he doused gasoline on her and set her on fire. Thank 
goodness Yvette Cade survived that assault again.
    So our system has to adjust itself as well and fix some of 
the things that have taken place in our own criminal justice 
system and our own social awareness, and we need to make sure 
that it is never socially acceptable in this country to commit 
crimes against women because they are women.
    I am fortunate to serve as the chairman of the Victims 
Rights Caucus, and this is one of the issues, along with other 
caucuses, the Women's Caucus here, that we need to bring 
awareness of. So I would like each of you to pick one thing you 
see that Congress needs to do and can do to help this issue to 
prevent this violence against women on whatever scale you would 
like to talk about it. Pick one thing, just one, Congressman 
Smith. And I would like to go down the row here while each of 
you think what you would like us to do as a Congress.
    Ms. Smith. I want you to take it seriously and put it at 
the top of your own priorities on this committee--I know you 
can't commit the rest to Congress--but make the defense of the 
American women and girls as important as the defense of women 
around the world, while not decreasing your attention to 
foreign-born women.
    Mr. Delahunt. Ms. Dutt.
    Ms. Dutt. You know, the United States passed a brilliant 
piece of legislation not too long ago, which was the Violence 
Against Women Act, and today it is time to pass the 
International Violence Against Women Act. Thank you.
    Mr. Delahunt. Ms. Kidman.
    Ms. Kidman. I would agree. If you could help us to pass 
this act, that is what we need to do.
    Mr. Delahunt. Well, thank you all.
    And thank you, Judge Poe, for your remarks. They were 
insightful. Oftentimes Congressman Poe and I tend to disagree, 
but in this particular case we are on the same page.
    And now I would like to go to my dear friend from Indiana 
Congressman Burton.
    Mr. Burton. You know, Mr. Chairman, no matter what you say, 
and I think the ladies that have spoken here today have covered 
the ground almost completely, but the one thing that probably 
has not been covered is what it is like to actually live this 
kind of a thing. The effect it has on the women and the 
children when they live through the horrors of wife and child 
abuse is unbelievable. I am not going to go into any details, 
but I just want you to know that I believe that men who abuse 
women and kids deserve the most severe penalties that can be 
applied by law, and in some cases I would even go further than 
that.
    My father tried to kill my mother. He went to prison, and 
he mistreated me and my brothers and sisters and my mother for 
a long, long time. And the only reason I bring that up is 
because it is so horrible to wake up at 3 o'clock in the 
morning, hearing your mother screaming and throwing a lamp 
through the window, and going downstairs and seeing her clothes 
being tore off her, and your father beating her half to death, 
and not even knowing if she is alive. It is not even funny. And 
that sort of thing needs to be punished to the fullest extent 
of the law. I even believe, even though murder isn't involved 
many times, when they go so far, it should be a capital crime. 
They should be killed for what they do to their wives and 
children. I feel that very strongly.
    So I just want to lend my support for the effort that these 
ladies are supporting today, and just to take it one step 
further and say that we ought to think not only about the women 
who are abused, but the people who are hurt that surround those 
women, in particular the children.
    Mr. Delahunt. Thank you. Thank you, Dan. And I think your 
point is very well taken because it has been my experience that 
those males that are incarcerated in our prisons throughout the 
country, all too often learned violence at home. They saw the 
kind of violence that Congressman Burton just described, they 
saw it as the norm, they saw it as acceptable. They just didn't 
parachute in and become violent criminals themselves.
    That is why if we are going to address the issue of crime 
in this country, we have to address the issue of violence 
against women and domestic violence. And as I indicated in my 
opening remarks, we have made progress, we have.
    I think it is important to remember in this country that it 
wasn't too long ago that there was the so-called rule of thumb 
where a male in this country could beat his wife as long as the 
stick with which he used did not exceed the circumference of 
his thumb. And it wasn't all that long ago in a historical 
sense that women finally earned the right to vote. There had 
been restrictions on women owning property until relatively 
recently in an historical sense.
    So it does take time, and it takes the courage of those 
women whose stories you related to us, all of them. And it is 
time that men woke up. And I feel confident that you have given 
us a wake-up call today.
    Let me go to the vice chair of this committee, my friend 
from Missouri Mr. Carnahan. Russ.
    Mr. Carnahan. Thank you, Mr. Chairman. And thank all of you 
for sharing inspiring stories and inspiring work. We have seen 
so many examples where peace and prosperity come around this 
world where women have been empowered, empowered with 
education, with economic programs, with enforcement rule of 
law.
    We heard from Ms. Kidman about the importance of building 
strong alliances with men, and Ms. Dutt about the program you 
described that calls on men and boys to take a stand against 
violence. And I want to ask each of you how men and boys are 
reacting to these kind of programs and messages, and also in 
terms of really gaining in terms of social and legal 
accountability. And we will start with Ms. Smith and go to your 
left.
    Ms. Smith. I don't know that we had very many programs in 
the United States or around the world until we started talking 
about DEMAND less than, I am going to say, 2 years ago. It has 
not been an issue discussed a lot. In the United States there 
is a new group started about 2 years ago called The Defenders. 
They have somewhere around 3,000 members now quietly building 
coalitions around themselves, first taking a stand to not use 
commercial sex, pornography, stripping or pornography--or 
excuse me or prostitution. It seems to be something they do 
proudly. It seems to be something they do, but cautiously, 
because they are afraid of being labeled one of those men.
    So I think with men like you standing and men like you 
making commitments, it will give courage to other men around 
the world. But I have been very encouraged by this group, and 
if you are not a Defender yet, you might want to go on line and 
become a Defender.
    Mr. Carnahan. All right.
    Ms. Dutt.
    Ms. Dutt. You know this is our third multimedia campaign in 
India, and the prior ones focused on women and HIV/AIDS and men 
infecting their wives in marriage. And on the second one we 
talked about the stigma and discrimination faced by HIV-
positive women. And so Bell Bajao, Ring the Bell, was the first 
time that we created a campaign that was an inclusive call to 
action, where we just didn't lay out the perpetrators, that 
male perpetrators did these things to women, but we said, do 
you know what, you can be part of the solution. And it has just 
been extraordinary. I mean, it has been like a wildfire of 
young men just really answering the call to action.
    We have this very extensive human rights training program 
where we work with both boys and girls, young men and women, to 
make them into human rights advocates in their communities. And 
I listen to these guys, and I listen to the ways in which they 
are not just dealing with the external community, but what they 
are doing at home, the conversations that they are generating 
with their mothers, with their sisters, how they are 
reexamining their relationships, how they talk about and treat 
women.
    There is this group of guys who used to be--you know, in 
India we call sexual harassment ``Eve teasing.'' So these guys, 
this group of guys who were Eve teasers, who, after having gone 
through human rights training and with Bell Bajao, have just 
become these really staunch advocates of women's human rights.
    So I think that it is really important to have 
accountability, to have the law and have the law work, but it 
is also really important to look at prevention and how we 
change attitudes and change norms to stop the violence from 
happening in the first place. And we have been very encouraged 
by the work that we have seen in the last year or so.
    Mr. Carnahan. And Ms. Kidman.
    Ms. Kidman. I mean, education. Educating boys and men is 
probably first and foremost, as we have all been saying. I know 
just recently we did a campaign in Australia for UNIFEM 
Australia where we had prominent men make pledges in the media 
to never commit violence against women and to protect women, 
and it was very impactful, just making--just saying the words. 
And there were certain words that we wrote out, and then they 
were printed in magazines with these pledges. And it was very 
powerful and very moving.
    And I think those things seem small, but that is where the 
education starts. Also UNIFEM supplies men's networks. And I am 
traveling to Kenya in November where I will see some of those 
men's networks firsthand.
    Mr. Carnahan. Thank you.
    Mr. Delahunt. Thank you.
    And before I go to the ranking member, we are joined by our 
colleague from Texas Ms. Sheila Jackson Lee. And I know that we 
have time constraints, so, Sheila, if you have a statement or a 
comment, could you do it now?
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I want to indicate to the witnesses how important this 
matter is to me. I was on the floor being Speaker pro tem, so I 
ask your indulgence of my presence here today. I have 
questions.
    One, I would just accept the underpinnings of Ambassador 
Verveer's comments, and that is that women's issues and the 
violence against women cannot be put to the margins of our 
foreign policy. I think an excellent statement. And I would add 
to that and say that we must be vigorous, we must be 
consummate, we must have vigilance, and I believe we must be 
aggressive.
    Last evening I looked at a movie called ``Tapestries,'' I 
believe, that talked about the myth, the horrible myth, that 
one could rid yourself of HIV/AIDS on the continent of Africa, 
and it may be prevalent elsewhere, by having sex with young 
girls; and watched a woman who had managed to gather--this 
happened to focus on Zimbabwe--but managed to gather girls who 
had been so abused. And some horrific statement came across the 
screen, I think I am remembering it well, that the youngest 
victim was 3 days old, an infant child.
    So my question, and if I could ask it--well, let me start 
with Ms. Kidman, and thank you all very much for this impact 
that you are doing. Tell me how effective you believe the 
United Nations is being in this effort. We are, in essence, 
collaborative jurisdictions, that is the United Nations and 
United States Congress, but we have oversight, we pay our U.S. 
dues, and so I would be interested in hearing how effective you 
think they are and how we could, as women Members of Congress, 
as men, be engaged in their effort, and when I say that, in 
helping to reaffirm how important that effort is.
    I will ask the last two questions for our last witness. 
Good to see you, Congresswoman Smith.
    I am going to you, Ms. Kidman. I am just going to throw my 
other questions on the table very quickly. If you would, with 
the other two panelists, just tell me whether or not we are in 
a surge of violence, or whether or not we have found a method 
to help cure it; or are we in a surge, and now we are seeking 
new ways? I was in Darfur as well sitting down with those 
women. So I am going to ask Ms. Kidman how she believes the 
United Nations is doing and what we can do to be helpful.
    Ms. Kidman. Well, as ambassador for UNIFEM, I believe that 
the reason I got behind them is that I heard of--I heard a 
program on the BBC about the work that they were doing, and 
this was in 2005. And the thing that appealed to me was that it 
was solution-based, that it wasn't about going in and also 
trying to change the culture of different countries; it was 
going in and trying to work with the culture, with the people, 
and come up with solutions. And I then met with different women 
that are working for UNIFEM and actually sort of begged to be 
involved. I believe that they are incredibly--they are 
aggressive in a good way, they are compassionate, and they are 
all willing to work tirelessly, as I have seen, grassroots. And 
I think that is what is so appealing, and that is what is so 
effective.
    Ms. Jackson Lee. You think they need more resources, more 
personnel?
    Ms. Kidman. Do we need more?
    Ms. Jackson Lee. Yes. More resources, more personnel, more 
people?
    Ms. Kidman. Yes, absolutely. We need a lot more, which is 
why I am here begging. But truly, I mean it is about we need 
the money, we need--because there are certainly the people who 
are willing to give their time. And I have heard that time is 
one of the most important things that people have to be willing 
to give. I am willing to give my time. And I see these women 
willing to give their lives to dedicate to this. And it is 
incredibly inspiring, and I hope to continue to do it for the 
rest of my life.
    Ms. Jackson Lee. You are saving lives.
    My last--is it Ms. Dutt and Ms. Smith, I didn't see the 
last name--question is about are we surging, are we plateauing?
    Mr. Delahunt. Congresswoman, we are really running out of 
time here. And we want to be able to invite you and other 
members to a press availability. And I know there are severe 
time constraints.
    Ms. Jackson Lee. May I just close, Mr. Chairman, by 
thanking them and also thanking Secretary Clinton, who long 
years ago said women's rights are human rights, and President 
Obama for his focus and interest in this very important area. 
Thank you, Mr. Chairman.
    Mr. Delahunt. I thank you. And I ask my friend if he wishes 
to make any closing remarks.
    Mr. Rohrabacher. Thank you, Mr. Chairman, very much for 
bringing us all together.
    Let me just suggest that we might think about how to set 
certain standards so we can actually do something real here, 
rather than just talk about how much we care about everybody. 
If we don't care enough to set real standards and enforce them, 
it doesn't mean a darn thing. Let's maybe perhaps, for example, 
people who are identified or countries that are identified as 
not respecting the rights of women, are guilty of crimes 
against women, maybe if some of the people in those countries, 
like their governmental leaders, shouldn't be granted visas to 
come into the United States, things such as that.
    And finally, let me just end, Nicole, thank you for what 
you are doing today. First of all I am going to ask you a 
question. It is going to be a very pointed question, but I want 
you to know that I respect you for being active. Here you are, 
trying to help in the situation. But you mentioned earlier that 
education plays a role in this. Doesn't Hollywood play a role 
in this? Hasn't Hollywood played a bad role? Haven't women been 
portrayed in Hollywood as weak and as sex objects, and hasn't 
that contributed to the problem?
    Ms. Kidman. Probably. But I also think they have 
contributed, or are trying to contribute to the solution. I 
mean you can always cite films, but I think as an individual I 
certainly don't undertake or don't want to participate in that. 
I mean I get offered films often that depict violence against 
women. And if I feel that it is exploitive or that it would 
actually demean women, then I am not interested and I pass. I 
can't be responsible for the whole of Hollywood, but I can 
certainly be responsible for my own career.
    Mr. Delahunt. Thank you very much.
    Mr. Rohrabacher. Good answer. Thank you very much.
    Mr. Delahunt. And I would note that if we are going--I 
think Congresswoman Smith's testimony--if we are going to have 
standards, we better apply them to ourselves as well. So this 
is not just simply a foreign global problem, it is an American 
problem. You are absolutely correct. The data that you revealed 
would, I suggest, could very well put us in an unfavorable 
light. But we are making progress.
    Again, thank you all. Now, I understand we are going to 
invite all the press to an availability in room 2200, and I am 
told that there is a reception. So, please, all come.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
